HHS/OIG-Audit--"Centers for Disease Control and Prevention Has Not Implemented a Charging System for Data Processing Costs, (A-04-92-03503)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Centers for Disease Control and Prevention Has Not Implemented a Charging System for Data Processing Costs," (A-04-92-03503)
March 16, 1994
Complete
Text of Report is available in PDF format (1.23 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Centers for Disease Control and Prevention (CDC) has not complied with requirements
to implement a charging system for its data processing costs. Although the CDC established a "fee-for-service" policy
that data processing costs would be charged to component centers, institutes and offices based on services actually provided
to those users, the policy was never implemented. We are recommending that the Public Health Service direct the CDC to
implement the policy.